N o. 2 0 - 5 5 2 0

In The
Supreme Court of the United States

t4ICHREL WILLIAMSON - Petitioner(s)

HARD NAY - HamparMmt(s)

PETITION FOR A REHEARING
&creme Court Rule 44.2

Counsel for Petitioner

Counsel for Respondent

Michael Williamson, pro se
Richland Correctional Inst.
1001 Olivesburg Rd.
Mansfield, OH 44905

Dave Yost
Ohio Attorney General
30 East Broad St.
Columbus, CH 43115

1 of 4

PETITION FOR A REHEARING
Now comes Petitioner, Michael Williamson (hereinafter, Williamson), pro se,
hereby petitions the court for rehearing of his petition for writ of certiorari.
The grounds on which Williamson brings this petition are presented in the follow,
ing.
GROCRIDS OF PEITEXW
Supreme Court Rule 44.2 states in part:
"My petition for rehearing of an order denying a petition
for writ of certiorari *** shall be filed within 25 days
after the date of the order of denial *** but its grounds
Shall be limited to intervening circtanstanoes of a substantial or controlling effect or to other substantial grounds
not previously presented.***.
Williamson's petition is timely and he asserts that the Valentine issue raised
in his petition for certiorari (at the least) will have a controlling effect that
serves to protect the people from unconstitutional carbon-copy indictments. The
alleged facts and procedural history have been before the court therefore
Williamson foregoes restating them in the interest of judicial economy.
The United States Sixth Circuit Court of Appeals in Valentine v. Fatteh,
395 F. 3d 626, held that 38 counts of Valentines 40 count indictment were carboncopy and thus failed to protect against double jeopardy and violated due process.
U.S. Cont. 5th and 14th. Williamson's indictment present identical constitutional
infirmities as Valentine's. Both indictments were issued by the Cliyahoga County
Grand Jury in the State of Ohio under then prosecuting attorney Timothy McGinty
and included the same criminal offense of rape, O.R.C. 2907.02. And, just like
Valentine, Williamson was convicted upon a "guesstimate" of times in which the
alleged acts occurred. Why is Williamson being denied the same protections of
the constitutica? And why is the law only acting as a hammer to crush him?
2 of 4

Judge Ronald Lee Gilman dissented in Valentine. In his dissent judge Gilman
complained that there was no Supreme Court precedent upon the issue of carboncopy indictments and felt the Russell standard was too tenuous on the issue of
notice and double jeopardy as applied in Valentine. Judge Gilman feels incredibly
vague indictments are rapahle of a explicated defense, even identically worded

CMS.
The practice of stacking or overindicting is a *common practice employed by
the State to try and intimidate defendants. However, it is not commonly challenged.
And although this dastardly deed is encouraged by Statist in9Lates and upheld
by the same, it still must be done in a constitutionally permissable manner such
to give adequate notice and protect against double jeopardy. Not just restate
the same words on a separate sheet of paper with absolutely no differentiation
as in Idillmasootand Valentine.
We the people of these United States are supposedly guarenteed basic rights
in the defense of liberty. Valentine, who's offenses were substantially worse
in nature and actually supported with real evidence, has felt the gracious protection of our constitution. Why not Williamson? Is there a level of ecstasy that
prosecutors and courts feel knowing that a man's conviction is evidenceless and
that they can grant him the slightest bit of rightful relief but don't? Even when
the constitution demands itl and the identical controlling case of Valentine!
The Ohio Attorney General did not appeal the Sixth Circuit's finding that
affirmed the district court's granting of Valentins's writ of habeas corpus to
this court. And obviously as judge Gilman points out there is no Supreme Court
•

authority on carbon-copy indictments. As such, this court should rehear Williamson's
petition for writ of certiorari, grant it in accordance with Valentine, and show
the nation that the scales of justice are equal and our constitution still lives
to protect us all.
3 of 4

BEATER Put RELIEF

Williamson prays this honorable court grants rehearing as he has not presented
this court with the dissenter's want of precedent to the issue, and accepts his
petition for writ of certiorari.

Respectfully submitted,
/
/traert 0
cba W
/ A423-451
Richland Correctional Inst.
1001 Oliveaburg Rd.
Mansfield, OH 44905

tet

Petitioner, pro se

CERTIFICATE OF SERVICE

I hereby certify under penalty of perjury that I sent the original petition
for rehearing to the Supreme Court of the United States Washington DC 20543-0001,
and a copy of the same to the Ohio Attorney General at 30 East Broad St., Columbus,
Ohio 43215 on this 026 day of October 2020 via regular U.S. Mail.

4 of 4

No. 2 0 - 5 5 2 0
In The
Supreme •Court of the United States

MICHAEL WILLIAMSON - Petitioner(s)

IRROLD MAY - Respondentie)

Supreme Court Rule 44.2
Certificate of Party unrepresented by counsel

Counsel for Petitioner

Counsel for Respondent

Eldest Williams" pro se
Richland Correctional Inst.
1001 Olivesburg Rd.
Mansfield, OH 44905

Dave Yost
Ohio Attorney General
30 East Broad St.
Columbus, CH 43215

RECEIVED
NOV - 4 2020
1 of 2

OFFICE OF THE CLERK
SUPREME COURT, U.S.

•
•

. 3 14 3'

•

•

••

cC Oet0Psc.. 3050 049 istmTIL WR° mrstr. •
Watunk C/vmalOgy Pr 20- m; rxoplAtt`tcronOme_ no $3.112 ou79ru77- Qa
map(' pgvi..
.w ?srefrotaiipou Da . J02,43,00004`.0u4 !teeth cc W9 90wo
clisOqT0
totricr.flo ot ficto;N riJ1017:AratOs4.4 oog1ps.r10WS ?et:Jews on 0T Ws
I patsp?‘ ostATIA /MOT boonaot Sawa wsr I ?Ayr giro otTartnr 01

Crearatistailt OE. MMIKM

liscrcioust` bt
r•
I

NrinntTsW CS Itao?
ION OTTAuspota ULT°
cottoorTOu97 WU' ;rftwsT mrintamacie ii4y-4e1

.4
.•

ip2hoogriirrk /epigram%

4
I-

4.
•

Burs 91*-3. 91,4 begrOurs Pit 619C11eu pi 119001 UUCP slug 110C Pot 9G19?'
cm; tot tspestima T2 tcarcTorw.co r,'s aatcroga aboeTtiscilu 20160909 Conti'
NifTejmett WInns! V'TTIroo0 Ypo 20. Vite0A C4L.OATGQ Mgr tare tiGct-

t

V

aissimacte wrx Crisirmitwroa cenzar

